A

CERTIFICATE OF COMPLIANCE
I hereby certify that, pursuant to Rule 33.1(h) ;of the Rules of this Court, the
Petition for a Writ of Certiorari complies with the type-volume limitations of Rule
33.1(g). Exclusive of the exempted portions identified in Rule 33.1(d), the brief
contains 4,297 words. (The undersigned is relying on the word-count utility in
Microsoft Word 2016, the word processing system used to prepare the brief,
consistent with Rule 33.1(d).)
PROOF OF SERVICE
I, Crystal VL Rivers, do swear or declare that'on this date, July 27, 2021, as
required by Supreme Court Rule 29, I have served the enclosed Motion for Leave
to Proceed in Forma Pauperis and Petition for a Writ of Certiorari on each party to
the above proceeding or that party’s counsel, and on every other person required to
be served, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first class postage prepaid.
The names and addresses of those served are as follows:
Counsel for the Defendants, IRS, FBI, Thomas Cullen, Karen Deer, and Mary Lou
Prilliman
310 First St, SW Rm 906, Roanoke VA 24011
US Attorney Daniel P. Bubar at Sara.Winn@usdoi.gov
Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Ave, NW
Washington DC 20530
I declare under penalty of perjury that the foregoing is true and correct.
Executed op JuTVgj
■a

Crystal VL RHvers, Pro Se

3831 Old Forest Rd, Suite 6
Lynchburg VA^ASOl
434-818-2921
riversparalegalservices@gmail.com
19

